<html>
<title> - A ``CARAVAN'' OF ILLEGAL IMMIGRANTS: A TEST OF U.S. BORDERS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


      A ``CARAVAN'' OF ILLEGAL IMMIGRANTS: A TEST OF U.S. BORDERS

=======================================================================

                                 HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 12, 2018

                               __________

                           Serial No. 115-77

                               __________

Printed for the use of the Committee on Oversight and Government Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
31-107 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c4a3b4ab84a7b1b7b0aca1a8b4eaa7aba9ea">[email&#160;protected]</a>                    
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Blake Farenthold, Texas              Jim Cooper, Tennessee
Virginia Foxx, North Carolina        Gerald E. Connolly, Virginia
Thomas Massie, Kentucky              Robin L. Kelly, Illinois
Mark Meadows, North Carolina         Brenda L. Lawrence, Michigan
Ron DeSantis, Florida                Bonnie Watson Coleman, New Jersey
Dennis A. Ross, Florida              Raja Krishnamoorthi, Illinois
Mark Walker, North Carolina          Jamie Raskin, Maryland
Rod Blum, Iowa                       Jimmy Gomez, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matt Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     Stacey E. Plaskett, Virgin Islands
Gary J. Palmer, Alabama              John P. Sarbanes, Maryland
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                  Robert Borden, Deputy Staff Director
                    William McKenna, General Counsel
   Sharon Eshelman, Subcommittee on National Security Staff Director
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
                                 
                                 ------                                

                   Subcommittee on National Security

                    Ron DeSantis, Florida, Chairman
Steve Russell, Oklahoma, Vice Chair  Stephen F. Lynch, Massachusetts, 
John J. Duncan, Jr., Tennessee           Ranking Minority Member
Justin Amash, Michigan               Peter Welch, Vermont
Paul A. Gosar, Arizona               Mark DeSaulnier, California
Virginia Foxx, North Carolina        Jimmy Gomez, California
Jody B. Hice, Georgia                John P. Sarbanes, Maryland
James Comer, Kentucky                Vacancy
                                     Vacancy
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 12, 2018...................................     1

                               WITNESSES

Mr. Brandon Judd, President, National Border Patrol Council
    Oral Statement...............................................     5
    Written Statement............................................     7
Colonel Steven McCraw, Director, Texas Department of Public 
  Safety
    Written Statement............................................    14
The Honorable Andrew R. Arthur, Resident Fellow in Law and 
  Policy, Center for Immigration Studies
    Oral Statement...............................................    27
    Written Statement............................................    29
Mr. Michael Breen, President & CEO, Truman Center
    Oral Statement...............................................    49
    Written Statement............................................    52

                                APPENDIX

Statement for the Record of U.S. Customs and Border Protection...    70
Letter for the Record from Amnesty International, submitted by 
  Ranking Member Lynch...........................................    74
Letter from Civil Rights Groups in California to Governor Brown, 
  submitted by Mr. Gomez.........................................    78

 
      A ``CARAVAN'' OF ILLEGAL IMMIGRANTS: A TEST OF U.S. BORDERS

                              ----------                              


                        Thursday, April 12, 2018

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:03 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the subcommittee] presiding.
    Present: Representatives DeSantis, Duncan, Gosar, Hice, 
Comer, Lynch, Welch, DeSaulnier, and Gomez.
    Mr. DeSantis. The Subcommittee on National Security will 
come to order. Without objection, the presiding member or the 
chair is authorized to declare a recess at any time.
    Over the course of the last 2-1/2 weeks, we've heard news 
accounts of a wave of foreign nationals headed for the U.S. 
southern border. We're here today to discuss the impending 
arrival of what was initially called an immigrant caravan, 
which remains a challenge of U.S. border security.
    The San Diego-based group, Pueblo Sin Fronteras, or People 
Without Borders, has taken credit for organizing the effort. 
While they claim to provide humanitarian aid to migrants and 
refugees, what they are doing now is undermining the rule of 
law.
    For 10 years now, this group has escorted foreign nationals 
on an annual trek from Central America through Mexico, 
encouraging many to continue to the United States, to take 
advantage of asylum laws. This year they drew their biggest 
crowd yet, more than 1,200 people. In some ways there are 
similarities to what we experienced in 2014, when waves of 
unaccompanied minors and young mothers with children streamed 
across the border.
    Unlike his predecessor, President Trump called out the 
Mexican Government's failure to step up and do their part to 
accommodate these refugees. For far too long, Mexico has been 
derelict in its duty. For far too long, Mexico has been content 
to let these caravans pass on through and become our problem. 
Not anymore.
    Coincidentally, a few days after this group decided to 
begin its annual march, DHS released its monthly apprehension 
statistics, which showed an alarming resurgence of illegal 
border crossers. What we saw in response was the consistency of 
conviction of President Trump's administration, of course, who 
campaigned on building a wall and who backs the brave men and 
women of ICE and Border Patrol and law enforcement everywhere, 
who are working hard.
    It took courage to mobilize the National Guard without 
manufacturing a humanitarian crisis, like the previous 
administration. As Commander in Chief, the President has every 
right to take meaningful measures to protect our way of life, 
maintain the integrity of our borders, and safeguard our 
immigration system.
    We all know the National Guard cannot serve in this 
capacity indefinitely. We need to take a hard look at what our 
existing laws and capabilities are, and be honest about what 
can actually be done to not only enhance border security, but 
to reduce the magnet of illegal immigration going forward.
    The caravan had the unintended consequence of helping the 
Trump administration identify its operational and legal 
vulnerabilities, and provided us with an opportunity to conduct 
much-needed oversight of some key immigration loopholes. It 
reminds us of how porous our borders still are, with people and 
drugs being smuggled in daily. We also see how, by directing 
our finite resources to illicit activity in one direction, we 
may be leaving a gaping hole for cartels and gangs to pass 
through in another.
    Now, there are promising actions that can be taken to get a 
handle on this. The Trump administration should follow the 
President's first immigration executive order and properly 
interpret the Wilberforce Act.
    In addition, to combat the abuse of asylum laws, both the 
Department of Homeland Security and the Department of Justice 
should send asylum officers directly to the border for a rocket 
docket, to immediately hold a rapid-fire field hearing and 
conclude that folks trying to abuse the asylum laws are, in 
fact, ineligible and then allowing them to be placed in 
expedited deportation.
    What is more, both Article II of the Constitution, and the 
delegated authority given to the President by the Congress to 
keep anyone who has not already entered and even override 
refugee and asylum policies when he determines it's against our 
interest. That's in the law now. When you have criminals, 
gangsters, drug crisis, and the political nature of the mass 
illegal immigration, this clearly fits that description.
    And finally, Congress, as part of any effort to tighten 
immigration statutes, must limit at least the power of the 
lower courts to block expedited deportation or denial of entry, 
except when there is a prima facie claim of a plaintiff being a 
U.S. citizen.
    We have a lot of work yet to do, and I'm glad to introduce 
our distinguished panel of experts who are here to help shed 
light on this important issue.
    Mr. Brandon Judd is here to speak on behalf of the 
approximately 15,000 Border Patrol agents in his capacity as 
the President of the National Border Patrol Council. Colonel 
Steven McCraw currently serves as the Director of the Texas 
Department of Public safety, which oversees 13 State criminal 
justice and public safety divisions. We also have the Honorable 
Arthur, resident fellow with the Center for Immigration Studies 
and former immigration judge. And lastly, we welcome Mr. 
Michael Breen from the Truman Center, a national security 
expert and Iraq War veteran.
    I'd like to add that we did invite the U.S. Border Patrol 
to join us here today, and they chose not to send a witness to 
testify on this important matter. Again, I'd like to thank all 
the witnesses who decided to join us today and look forward to 
their testimony.
    Finally, I just want to make sure we will be maintaining 
order in the hearing room. So I thank you and I yield to my 
ranking member, the gentleman from Massachusetts, for his 
opening statement.
    Mr. Lynch. Thank you, Mr. Chairman. I'd also like to thank 
and welcome our witnesses today. Thank you all for helping this 
committee with its work. As evidenced by the bipartisan omnibus 
appropriation bill passed last month, there are members on both 
sides of the aisle who share a commitment to providing our 
border security and enforcement personnel with the resources 
necessary to perform their critical missions on behalf of the 
American people.
    This agreement, which I supported, I voted for, provides a 
total of $14 billion for Customs and Border Protection, 
including $4.4 billion for CBP, Customs and Border Patrol and 
security operations, and $3.7 billion for U.S. Border Patrol 
training, development, assets, and other activities. It also 
makes funding available for the hiring of 351 new Border Patrol 
agents and law enforcement officers.
    And while the omnibus agreement was a result of hard-fought 
negotiation and is not a perfect bill, I believe that it does 
represent a meaningful step towards enhancing our border 
security. However, it is imperative that the Federal Government 
utilizes these and other new funding sources provided by the 
agreement in a wise fashion.
    In the interest of national security, policies designed to 
secure our borders against the threat of terrorism, criminal 
networks, and other illicit activities cannot be based on 
misinformation, or derived from arbitrary Presidential tweets. 
Rather, the strength of our border security framework is 
dependent on policies developed through bipartisan 
consideration, and grounded entirely in fact. To this end, they 
must also be undertaken in a manner that avoids demonization, 
and affords maximum respect to the fundamental principles of 
America as a Nation of immigrants, and also adheres to the 1951 
Geneva Convention relating to the status of refugees.
    In view of all these considerations, it is important to 
review President Trump's recent decision to order deployment of 
up to 4,000 National Guard personnel to the U.S.-Mexican 
border. Clearly, this decision is not unprecedented. Both 
President George W. Bush and President Obama previously invoked 
so-called Title 32 authority to temporarily deploy thousands of 
National Guard units to the southwest border to provide 
technical, logistical, and administrative support to the U.S. 
Border Patrol.
    It is noteworthy that while the U.S. Border Patrol 
apprehensions for illegal border crossings exceeded 1 million 
apprehensions in 2006 and over 460,000 apprehensions in 2010, 
U.S. Customs and Border Protection reports that in 2017, the 
agency recorded, quote, ``the lowest level of illegal cross-
border migration on record, as measured by apprehensions and 
inadmissible encounters at U.S. ports of entry,'' close quote. 
The approximate 310,000 arrests for illegal border crossings 
recorded for 2017 represents the lowest annual apprehension 
figure since 1971, 46 years ago.
    In articulating his plan to deploy National Guard units, 
the President has stated, quote, ``We are looking from 2,000 to 
4,000 and will probably keep them, or a large portion of them, 
until such time as we get the wall,'' close quote.
    Given that Congress has not authorized funding for the 
entirety of the President's desired border wall and absent 
further clarification of the President's tweet, the deployment 
of our National Guard units to the southwest border appears to 
be indefinite in duration at this point. It also remains 
largely undefined, in terms of scope and cost. According to the 
independent Government Accountability Office, the collective 
cost of the two previous National Guard border operations under 
President Bush and President Obama exceeded $1.35 billion.
    It's important, I think, for Congress to learn which 
priorities or programs the military will need to reduce in 
order to reprogram the necessary funding to pay for this border 
operation. In order for this committee to examine the merits of 
the President's action, today, Ranking Member Cummings and I 
join ranking members from the House Homeland Security, Armed 
Services, and Judiciary Committees in requesting a series of 
documents from the Department of Defense and the Department of 
Homeland Security pertaining to the rationale behind the 
announcement of deploying National Guard troops to the border, 
as well as the specific activities, duration, and costs 
associated with this operation. This includes any memoranda of 
understanding the administration has negotiated with relevant 
States in the National Guard Bureau.
    Along these lines, it would have been very helpful for us 
to hear from the Department of Defense and Department of 
Homeland Security witnesses at today's hearing as we continue 
to conduct oversight over our border security policies and seek 
to identify commonsense steps that we can take to better secure 
our borders in a balanced and sustainable way.
    So thank you, Mr. Chairman. I look forward to discussing 
these issues with our witnesses, and I yield back the balance 
of our time.
    Mr. DeSantis. The gentleman yields back.
    I'm pleased to introduce our witnesses. We have Mr. Brandon 
Judd, president of the National Border Patrol Council; Colonel 
Steven McCraw, director of the Texas Department of Public 
Safety; the Honorable Art Arthur, resident fellow in law and 
policy at the Center for Immigration Studies; and Mr. Michael 
Breen, President and CEO of the Truman Center.
    As you can see, there is an empty chair for the uninvited 
witness, Ms. Carla Provost, acting chief at the U.S. Border 
Patrol, should she choose to attend the hearing.
    Welcome to you all. Pursuant to committee rules, all 
witnesses will be sworn in before they testify. So if you could 
all please stand and raise your right hand. Do you solemnly 
swear that the testimony you are about to give is the truth, 
the whole truth, and nothing but the truth, so help you God? 
Please be seated. All witnesses answered in the affirmative.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your entire written statement will be 
made part of the record. As a reminder, the clock in front of 
you shows the remaining time during your opening statement. The 
light will turn yellow when you have 30 seconds left and red 
when your time is up. Please also remember to press the button 
to turn your microphone on before speaking.
    And, with that, we'll recognize Mr. Judd for 5 minutes.

                       WITNESS STATEMENTS

                   STATEMENT OF BRANDON JUDD

    Mr. Judd. Chairman DeSantis, Ranking Member Lynch, and 
distinguished members of the subcommittee, I would like to 
thank you for the opportunity to testify today. I want to 
discuss with you the issues of border security and the magnets 
that draw people across our border illegally. This includes, 
but is not limited to, the catch-and-release program, manpower, 
and the use of agents. The catch-and-release policy is a term 
that was coined by Border Patrol agents many years ago. It 
refers to persons arrested for crossing the border illegally, 
and subsequently, released into the United States on their own 
recognizance and prior to having their deportation proceedings 
adjudicated by an immigration judge.
    Under this program, most individuals are released, with the 
promise to appear before a judge at a later date that is to be 
determined. Due to an extensive backlog of cases, the date is 
usually at least 2 years from the time of release, but it might 
as well be 10, 15, or 20 years, because the vast majority of 
these individuals never appear before a judge as ordered. 
Instead, they disappear into the shadows of society.
    On January 25th, 2017, President Donald Trump signed the 
Border Security and Immigration Improvement Executive Order. 
Its intent was to implement new policies designed to stem 
illegal immigration. In support, DHS Secretary John Kelly 
issued implementation directions by a memoranda to all 
corresponding department heads, stating the catch-and-release 
policy shall end immediately.
    Notwithstanding the clear guidance, catch-and-release 
policies have not ended. In November of 2017, field office 
directors for both San Antonio and El Paso, Texas, ICE ERO 
field offices sent email messages to Border Patrol leadership 
stating, in part, ``I have directed my staff to not accept 
files or custody of any FAMUs,'' family member units, ``that 
are not processed as NTAs, notices to appear, that are not FRC 
eligible.'' FRC is field relocation center. ``My position may 
change subsequent to discussions with HQ, but for now, ERO San 
Antonio and El Paso position is that we will not process cases 
like male HOH,'' head of household, ``unless we accept custody, 
as the transfer of cases is not automatic.''
    By processing illegal border crossers with WA/NTAs, we 
consciously continue the catch-and-release program and send a 
clear message to criminal cartels that we are not serious about 
following through with the President's or Secretary's orders.
    Criminal cartels continue to exploit our policies, 
specifically catch and release. They force large groups of 
people to cross the border illegally in dangerous locations 
instead of through ports of entry, a controlled environment, in 
an effort to create gaps in our coverage. By creating gaps, 
criminal cartels are able to cross higher-value contraband, 
such as opioids, criminal aliens, persons from special interest 
countries, and other narcotics without detection, apprehension, 
or seizure. By continuing policies like catch and release, we 
are putting innocent people, like women and children, into the 
hands of dangerous criminal enterprises.
    The single biggest challenge that we face right now to 
securing our border is manpower, as we are currently 2,000 
agents below our congressionally mandated floor of 21,370 
agents. There are currently three challenges that we face: 
Retention, recruitment, and the use of agents. The National 
Border Patrol Council also views the reinstatement of FLSA as a 
top priority and one that will significantly improve our urgent 
retention crisis. I want to be clear about this. Until we 
address these issues, we will not be able to secure the border.
    Along with catch and release and manpower, the deployment 
of our limited resources is an important piece of the border 
security puzzle. The Washington Times recently published an 
article highlighting gross mismanagement of the Border Patrol 
workforce in the McAllen Border Patrol Station. A little more 
than 700 agents are assigned to the station, and when annual 
leave, sick leave, and days off duty are calculated, there are 
approximately 400 agents that show up to work on any given day. 
Of those 400 agents on duty, only around 50 are deployed to the 
border. That's unacceptable.
    This is well below par for a station that controls 
approximately 60 miles of the border and is the busiest station 
in the country. The Federal Government's decision to devote 
only 12 percent of the workforce to perform the duties they 
were hired to perform is lost on me, but for the sake of border 
security, this is entirely unjustifiable.
    If you are angry about this, you should be. Protecting our 
borders is paramount to ensuring homeland security, economic 
prosperity, and national sovereignty. It is my hope that that 
the members of this committee recognize this and exercise their 
oversight responsibility to hold Border Patrol management 
accountable. I want to thank you for this opportunity to 
testify, and I look forward to answering any of your questions.
    [Prepared statement of Mr. Judd follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you. Colonel, you're up.
    Colonel McCraw. Chairman, distinguished members, Steve 
McCraw, director of Texas Department of Public safety.
    You have my written testimony, so I will not go into 
anything that I discussed in there, but four things I would 
like to mention.
    First, I mean, obviously, the Texas-Mexico border is 
unsecure. Because of that, the consequence of that is it is a 
public safety and national security threat, not just to Texas 
but to every community in the United States. And Ranking Member 
Lynch, you noted some of those things in your comments along 
that. Everyone is concerned about the impact of criminal 
organizations on their communities. And we all recognize that 
we're concerned about fentanyl. We're concerned about 
methamphetamine. If you got a drug problem, you have a cartel 
problem. You have got an unsecure border problem. If you have 
an MS-13 problem in New York, you have a border problem. So 
clearly, it's the most significant vulnerability that we face 
right now from a national security and public safety 
standpoint.
    From a Texas standpoint, you know, we recognize that it's a 
sovereign responsibility of you, the Federal Government, to 
secure the border, but when it doesn't happen, it impacts our 
communities.
    And Governor Abbott and the State Legislature in Texas is 
not going to sit around and do nothing. And what they have done 
is they've allocated billions of dollars to support, provide 
direct support to U.S. Border Patrol, not compete, complement 
and provide direct support to deter, detect, and interdict 
smuggling incidents between the ports of entry. And that 
includes marine assets, a tactical marine unit we put in place. 
I have got over 1,000 troopers right now engaged in border 
security activities. We have 13 aircraft, including nine 
helicopters and four airplanes, that are dedicated full-time to 
border security operations. We have got 13 tactical boats that 
are done. We have got 42 Texas Rangers that we've established 
to address public corruption, but also to work on occasion--
prior, we had to work assault on Federal officers, because they 
weren't being handled at the Federal level. They are now, 
thanks to the new U.S. Attorney in the Southern District. But 
those are the types of things that are important to Texans. And 
as Texas goes, so goes the Nation.
    And we recognize also that not only is it the sovereign 
responsibility of the Federal Government, it can be done. This 
is not rocket science. And Mr. Judd mentioned a few of those 
things that are clearly--clearly would enhance or secure the 
border, without question. And some of those things is people, 
technology, infrastructure, and the equipment that they need 
and resources that they need. And there is no question that 
they could do it if they had that. But because they don't have 
it, the Department of Public Safety, the State of Texas and 
Governor Abbott, they're dedicating resources and time and 
energy to be able to complement what they're doing in the 
Border Patrol.
    I will say this, though. We do appreciate the Texas 
military forces and Texas National Guard in Texas. They do a 
great job. In fact, we've had them involved in border security 
operations from the beginning, and we'll continue to do. And 
thankfully, recently they've been able to plus up. They bring 
with them not just the UH-72s, but also other resources that we 
can use, in terms of observation/listening posts. And I can 
defer to Mr. Judd on how important those things are to be able 
to deny cartels access to those key areas.
    And I'm sure I've outlived my time, so I'll stop right now 
and move on. Thank you, Chairman.
    [Prepared statement of Colonel McCraw follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    The chair now recognizes Mr. Arthur for 5 minutes.

               STATEMENT OF HON. ANDREW R. ARTHUR

    Mr. Arthur. Thank you. Mr. Chairman, the gentleman from 
Massachusetts, Mr. Lynch, and members of the subcommittee, 
thank you for inviting me to speak today about this crucial 
topic of national interest.
    Mr. DeSantis. Make sure your mic is on. There you go.
    Mr. Arthur. I should know that, shouldn't I?
    A caravan, organized by an immigrants rights group in the 
middle of March 2018 in Tapachula had grown to more than 1,000 
people, mostly Honduran nationals, by the end of the month. 
This was the 8th year such a caravan had been assembled, but 
the most notable because of the large number of participants.
    This year's caravan, however, illustrates a little noticed 
issue along the southwest border, and that is a sharp increase 
in the number of alien apprehensions and inadmissibles, 
reversing a downward trend that had begun in November 2016. 
From 66,712 in October 2016, the number of aliens entering 
illegally or seeking entry without proper documents along the 
southwest border, had dropped to 15,780 by April 2017. The 
numbers, however, began to slowly increase between the spring 
and early winter of 2017, before declining into the mid 
30,000s. In March 2018, with Congress having debated amnesty 
for DACA applicants and others, however, those numbers 
skyrocketed to 50,308 apprehended and inadmissible aliens. If 
this continues, that would be 600,000 aliens in a year.
    This increase and the phenomenon of the caravan in 
particular brought into focus some crucial loopholes and flaws 
in U.S. immigration law. The first is credible fear. In 1996, 
Congress amended the immigration law to expedite the removal of 
aliens coming without visas or entering illegally. These 
amendments, however, included a provision to allow aliens 
fleeing harm to avoid expedited removal by asserting a credible 
fear of persecution, allowing them to apply for asylum.
    In fiscal year 2009, the asylum office completed 5,523 
credible fear cases. By fiscal year 2013, as news spread that 
aliens applying for credible fear were being released from 
custody, that number increased to 33,283. At its height in 
fiscal year 2016, there were 81,864 credible fear cases. These 
are people arrested at the border, claim credible fear to get 
into the United States.
    The majority of aliens, up to 90 percent who apply, are 
found to have credible fear. There are many reasons for this, 
including a lack of clear guidance in adjudicating asylum 
claims, the low credible fear standard, and lax evidentiary 
burdens to make such a claim. The fact is most of the aliens in 
the caravan, should they come to the United States and claim 
credible fear, would likely be released to await an asylum 
hearing that may be years in the future, if they appear at all.
    This is not the only flaw in our immigration laws, however, 
that renders our borders insecure. Interpretations of the 
Trafficking Victims Protection Reauthorization Act of 2008, or 
TVPRA, have resulted in the release from removal of tens of 
thousands of minors from countries other than Mexico or, as we 
call them, OTMs, including many, if not most, of whom were 
never trafficked to begin with. This has provided incentives 
for thousands of other OTM alien minors and their parents to 
trust those minors' lives to smugglers and undertake the 
perilous journey to the United States.
    Similarly, a 20-year-old settlement agreement in Flores 
versus Reno has created a presumption that alien minors who are 
apprehended along the border, even those who came with their 
parents, should be released into the interior of the United 
States. This provides even greater incentives for illegal 
entry, and more money for the smugglers and cartels who 
facilitate such entry.
    Finally, a 2008 expansion of eligibility for special 
immigrant juvenile visas has provided a third incentive for 
alien minors to enter the United States illegally, and for 
their parents to entrust their children to smugglers, debased 
criminals who deal in human misery.
    The fact is, most of the OTM alien minors in the caravan 
will likely be processed and released into the United States if 
they decide to come here. The administration has taken steps to 
stem the recent flow of illegal aliens to the United States, 
including ending catch and release, as we discussed earlier, 
sending National Guard troops to the border, and establishing a 
zero tolerance policy for illegal entry prosecutions.
    Each of these efforts, however, will fail to secure the 
border as long as the loopholes and flaws that I have described 
exist. I want to thank each of you for your time, and I look 
forward to your questions.
    [Prepared statement of Mr. Arthur follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Mr. Breen, 5 minutes.

                   STATEMENT OF MICHAEL BREEN

    Mr. Breen. Thank you. Chairman DeSantis, Ranking Member 
Lynch, distinguished members of the subcommittee, thank you for 
the opportunity to testify today.
    The situation at our southern border represents a foreign 
policy problem, a drug policy problem, an immigration policy 
problem, a series of legal problems, a humanitarian problem, a 
law enforcement problem, and much else besides. It is not at 
this time, definitively not a military problem.
    I want to preface my testimony by saying how much I respect 
the service and the sacrifice of Border Patrol agents, Texas 
Department of Safety troopers, and other law enforcement agents 
who safeguard our borders and our communities. My own uniformed 
service was in the military, not in law enforcement, but I'm a 
proud member of a three-generation law enforcement family. And 
with respect to the Border Patrol, my dad was serving as a New 
Hampshire State trooper who was involved in the apprehension of 
Carl Drega in 1997, alongside a Border Patrol agent who was 
shot and wounded during that incident.
    So we show our military men and women a great deal of 
appreciation in this country, but not frequently enough with 
law enforcement and their families. So thank you for everything 
that you both do and all that you represent.
    Ensuring that our law enforcement agencies have the 
resources they need must be a national priority, and there is 
no question that a secure border is essential. Fortunately, 
we've been on the right track toward both of those goals over 
the past several decades. We've tripled the Border Patrol's 
budget since 2001, even as apprehensions have dropped 
dramatically, from over 1.2 million in 2001, to just over 
300,000 in 2017, a large portion of whom were asylum seekers 
who appeared at ports of the entry or actively sought out 
Border Patrol agents rather than attempting to avoid them.
    There is much more important work to be done, of course, 
and it's critical that we do it, but these numbers point to a 
success story for the Nation and they reflect important 
political and economic changes in the hemisphere. What these 
numbers do not point to, and what we do not, in fact, face, is 
a true crisis or emergency on the border. We face challenges, 
of course, but those challenges are best addressed by 
strengthening the institutions we already have, to support safe 
and orderly migration and through foreign policy and economic 
statecraft in Latin America, not by using the military.
    Nonetheless, President Trump frequently speaks of the need 
for a great wall across nearly 5,000 miles of the southern 
border. He initially claimed this wall would be paid for by the 
Government of Mexico, which, of course, declined to do so. He 
then sought the funding from Congress, which has also, in large 
part, declined up to this point.
    So now President Trump has declared his intention to deploy 
up to 4,000 National Guardsmen to the border. In the 
President's own words, ``Keep them there, or a large portion of 
them there, until such time as we build the wall,'' close 
quote.
    There may be some marginal benefit to the deployment, but 
there are a great many causes for serious concern, although 
more so, because it does not appear to be the result of a 
deliberative planning or decision-making process. The decision 
is likely to negatively impact readiness for the National 
Guard, potentially for the Active Duty force as well, do 
nothing to improve the capabilities or strength of the Border 
Patrol itself in the long run, and do precious little to 
improve security.
    Time does not permit me to lay out all the reasons this is 
so, which are detailed much more fully in my written testimony, 
but essentially, it comes down to readiness and cost, two 
issues which are, of course, extremely interrelated. It's still 
unclear where the funds for this will come from, but costs are 
likely to be in the hundreds of millions, at a minimum. And if 
that funding is repurposed from within the Department of 
Defense, Congress should ask hard questions about the impact on 
other defense priorities, especially readiness.
    There is also a direct readiness cost to the National Guard 
since, by definition, Guardsmen who are standing tower duty, 
clearing brush, maintaining fences, doing other things on the 
border are not training with their brigade combat teams for 
their primary mission, which is combat. That impacts our 
national security as a whole, because, as an operational 
reserve, the Guard is an integral part of our military team.
    If we faced an actual emergency on the border, those costs 
and risks would perhaps be worth incurring, but consider the 
so-called threat that prompted this very hearing. A caravan of 
Central America migrants that presented no serious national 
security threat to the United States in the first place, and 
that is now largely dissipated, with only a fraction of the 
original 1,200 travellers planning to continue their journey 
northward through Mexico, where, by all indications, they 
intend to present themselves at a port of entry and seek 
asylum.
    So, in short, the situation at our southern border is, in 
many ways, better than it's been in decades; but meanwhile, the 
National Guard is an increasingly integral part of our 
military, and our military faces a more challenging environment 
around the world than it has in decades: Ongoing wars in 
Afghanistan, Syria, and Iraq; counterterrorism work in East 
Africa, West Africa, Yemen; ongoing commitments to NATO and our 
mission in Kosovo, which the Guard entirely owns; critical 
deterrence missions in the Persian Gulf and the Korean 
Peninsula, where that border is more dangerous than it's been 
at any point since the last Korean War.
    Our military is facing all of these challenges just as the 
services are finally digging out of a serious readiness gap, as 
Secretary Mattis is testifying to down the hall, left by 15 
years of war. So this is not the time to pull troops and 
dollars away from their primary mission to fight and win the 
Nation's wars, especially in the absence of a genuine threat.
    There is much we can do and should do to improve the 
situation on our southern border. I hope we do those things. 
But deploying the National Guard in this manner right now is 
not one of those things.
    Thank you and I look forward to your questions.
    [Prepared statement of Mr. Breen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you. The chair now recognizes himself 
for 5 minutes.
    Colonel McCraw, when they had the border surge in 2014, was 
that something that was good or bad for the drug cartels?
    Colonel McCraw. It's always good for the cartels if they 
can overwhelm Border Patrol's resources, and that's what 
happened in 2014. It overwhelmed the resources. And the threat 
is more significant than, I think, that some have let on to. 
When you're talking about Mexican cartels that are powerful and 
ruthless and dominate the entire lucrative drug and human 
smuggling market, engage in trafficking of people and drug 
trafficking as well, when you've got transnational gangs, when 
you've got criminal aliens.
    When you have these smuggling communities recruit our 
children, all these things, you know, result in a serious 
public safety threat. Like I said before, not just Texas. What 
happens on the Texas-Mexico border happens throughout the 
Nation. So clearly, it was a problem, and we saw that. And less 
Border Patrol agents were there and they were involved in 
detention activities and trying, in an overwhelmed situation 
trying to deal with unaccompanied children and family units, 
and could not put enough people in line.
    And Texas, at that point in time, the leadership and State 
Legislature decided to spend enough resources to conduct and 
send troopers around, 24 and 7, from around the State, maintain 
surge operations for 3-1/2 years, until we can permanently 
assign troopers down to that area.
    So, from a Texas standpoint, they've been paying the bill 
thus far. And anything you can do to support Border Patrol, 
we're all for. If it's National Guard right now, fine. But the 
long-term solution is clearly invest in Border Patrol.
    When you get right down to it, the patrol function in the 
Federal Government has never been valued, period. The 
investigative function, yes, but not the patrol function. They 
don't have the incentive bonuses. They don't have the salary. 
They don't have the things that recruiting, they can readily 
recruit and compete with some of the other services at the 
Federal level.
    Patrol in a post 9/11 environment is extremely important. 
It's a deterrent capability. And unless you invest in it, 
you're not going to have the type of capability that you need. 
And clearly, again, I've said it a number of occasions and not 
just here, is that Border Patrol can do it. They don't need 
Texas to help them if they're given the proper resources to do 
it.
    And if it's National Guard right now, we're all for it. 
Anything you can, because we look at it every day matters. 
Every day a community is impacted in Texas. Every day something 
goes on that's criminal that's transnational crime that we have 
to deal with in Texas. So anything we can do and the Federal 
Government can do, we're all for.
    Mr. DeSantis. Mr. Judd, in terms of the cartels and 
bringing--because I think we're seeing in our country a huge 
problem with fentanyl and some of these opioids. These are 
street drugs. You know, they're being brought in. A lot of it 
is across the border. A lot of it originates in China.
    Where is the majority of that coming in, in terms of are 
these controlled access points that they're just sneaking past 
the guards, or are they parts of the border that are unsecured?
    Mr. Judd. No, most everything that's coming across is 
coming between the ports of entry, because it's easy. If you go 
through a controlled environment, you've got all kinds of 
people, you've got the K-9 handlers, you've got to get past all 
of that.
    What it's very easy for the smugglers to do is it's easy 
for them to send people across the border illegally, which they 
force them to do. They force us to take our resources out of 
the field to deal with that, create the gaps, and then they 
cross their products right behind in the gaps that they 
created.
    You got to remember, of those 50,000 apprehensions that we 
had in March, only 13,000 was at the ports of entry. 38,000 was 
between the ports of entry.
    Mr. DeSantis. Mr. Arthur, in terms of asylum, how does it 
work? I mean, if somebody is living in a poor country where 
there's crime, can they just kind of come here and say asylum, 
or do they have to qualify for certain types of--maybe they 
were persecuted on the basis of race or religion or something 
like that? Can you just give us how is it supposed to work and 
then how is it actually working?
    Mr. Arthur. To be granted asylum in the United States, you 
have to show either past persecution or well-founded fear of 
persecution on account of race, religion, nationality, 
membership in a particular social group or political opinion.
    Four of those are easily defined. The fifth one, membership 
in a particular social group, unfortunately, is rather vague, 
vague in the law and vague in its interpretation. But, 
fortunately, Attorney General Sessions has certified a case to 
himself in which he will clarify what exactly the parameters 
are for granting asylum on the basis of being a victim of a 
criminal activity, such as by gangs in a foreign country.
    Mr. DeSantis. So, I mean, you know, I think most of us 
believe that, you know, there is a role for people who are 
being persecuted. The United States does want to be a refuge 
for folks in that situation.
    But if you're coming in because, you know, better job 
opportunities are here, using some amorphous thing, I mean, 
isn't that kind of a runaround just the normal legal 
immigration process, where they should just be applying to come 
here, if they're not actually in any of those buckets that 
you're talking about?
    Mr. Arthur. Unfortunately. And unfortunately, it's actually 
worse than that, because the fact is the bad claims take away 
from the good claims. They take away from the time that the 
judges have to grant asylum to individuals who are actually in 
fear of harm in their home countries.
    Once granted asylum by an immigration judge, those 
individuals could then petition to bring their families out of 
that dangerous situation. But when the system gets clogged up 
with fraudulent claims or non-meritorious claims, the system 
breaks down. And that's what we're seeing right now in our 
immigration courts.
    Mr. DeSantis. I'm out of time, so I'm going to recognize 
the ranking member for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    Firstly, I'd like to have entered into the record a letter 
from Amnesty International regarding this hearing.
    Mr. DeSantis. Without objection.
    Mr. Lynch. Thank you. As I noted earlier, the omnibus 
appropriation bill that we just did allocated $14 billion for 
Customs and Border Protection. That included a lot for security 
operations, and I believe hiring, I think, 351 additional 
Border Patrol agents.
    However, that bill did not anticipate moving 4,000 National 
Guard to the border. That's a separate budget that's got to 
come off DOD's account. And last week, Secretary of Defense 
Mattis directed the Pentagon comptroller to, quote, ``identify 
available funding to pay for the 4,000 National Guard troops to 
be moved to the border.'' We still don't have an estimate of 
how much the operation will cost, but we do know it will divert 
resources from other military priorities.
    And Chairman Mac Thornberry, also a Texas native, had this 
to say: He said, If you take away money, you can't do some of 
the things that--you take away things from the--money from the 
defense budget, you can't do some of those things that you were 
trying to do, like add pilots or repair ships or those other 
sort of things.
    So, Mr. Breen, first of all, thank you for your service to 
our country. We appreciate it. What do you think about, you 
know, pulling money from, I think, core defense and combat 
training activities and diverting, you know, 2,000 to 4,000 of 
our National Guard men and women to the border, what do you 
think about the efficacy of that move?
    Mr. Breen. Congressman, that's a dangerous game to start 
playing. And I think history indicates that, all the way back 
to Task Force Smith in the first Korean War. Readiness degrades 
in a military force very quickly, and the cost of that can be 
very high when you get yourself into a fight.
    I agree with a great deal of what Colonel McCraw had to 
say, in the sense that we do need to invest in these 
capabilities, but I think there's a--patrol and other things, 
but I think there's a great danger when policymakers reach for 
the military as a Band-Aid to solve problems in other areas of 
government.
    And the military can only do so many things. It's been 
overstretched. The Secretary of Defense, who knows a few things 
about being in a fight, again, is down the hall saying the 
number one priority is lethality. The chairman of the Joint 
Chiefs of Staff says readiness is his number one priority. He 
has no number two priority. And he's identified critical 
readiness needs, in terms of the force's ability to go toe to 
toe with foes like Russia and other modernizing militaries. We 
have become I think a little too accustomed to think of 
ourselves as an overwhelming superior force, but we have been 
tied down doing counterinsurgency and counterterrorism, which 
are serious tasks. Meanwhile, the world's other high-end 
militaries have been modernizing and have been looking at 
everything we do and training and manning and equipping 
specifically to fight us. So we've got to really catch up to 
that.
    And, again, going back into history, Task Force Smith was 
about 5 years after the end of World War II. It doesn't take 
long. You take the most capable land force the world had ever 
seen, the one that beat the Nazis and the Japanese in World War 
II, 5 years later, puts an infantry force into the field 
against the second-rate North Korean Army, and is routed, 
because the investments weren't continuously made in that 
combat capability. So I think it's dangerous.
    The other thing I would say is it impacts the entire Guard. 
It sounds like, you know, it's only 4,000 guardsmen, but the 
Guard needs to deploy and fight as a brigade combat team. A 
brigade combat team is 5,000 soldiers. When you start removing 
elements of that team for other tasks, it degrades the entire 
team's ability to train. And the National Guard has a 
modernization and training plan called National Guard 4.0 that 
explicitly calls for those brigade combat teams to be kept 
together and trained together so they can deploy to fight 
together. So this directly undermines those priorities.
    Mr. Lynch. Thank you. And by the way, thank you all for 
your service to our country. Thank you all.
    We've had a chance, members of this committee, to go down, 
we went down to Tegucigalpa down in Honduras, went down to 
Guatemala City down in El Salvador, to look at the human 
trafficking operations going on there that are actually 
inducing people to come up to the border. We also have had an 
active role in what's going on in the tri-border area where we 
have got Hezbollah on the ground, and so there are major 
concerns there.
    My question is really about the efficiency and efficacy of 
our funding. Is it better to try to divert money to the 
National Guard or--look, I voted for this $14 billion for 
Border Patrol, you know, enhanced border security. Is that a 
better way to address the challenge that we have, or should we 
sort of try to make it up as we go along using our National 
Guard folks to do a job that they necessarily aren't really--
they didn't sign up for, I guess?
    Mr. Judd. Well, the investment in the Border Patrol has to 
be there, but right now you have an attrition rate that exceeds 
the hiring rate. And so we're not retaining our Border Patrol 
agents, so we do have to have a stopgap. But as far as our 
National Guard, they're being put in situations that is like 
combat situations. They're in LP and OP situations. They're 
sitting in observation posts, which they would be required to 
do in the military in the event that a war was to take place. 
As a uniformed officer, I've worked right next to my uniformed 
National Guard counterparts, and I can tell you that they feel 
that the operations that they're doing is----
    Mr. Lynch. I know my time is running short. All I'm saying 
is that Secretary Mattis had other stuff for those folks to be 
doing rather, than being sitting on the border, and I'm just 
worried about those other priorities that are being ignored. 
But thank you, I appreciate it.
    I yield back.
    Mr. DeSantis. The gentleman's time has expired.
    The chair now recognizes the gentleman from Tennessee for 5 
minutes.
    Mr. Duncan. Thank you, Mr. Chairman.
    When I was growing up, my grandparents in Scott County, 
Tennessee, one of the poorest counties in the U.S., they had 10 
kids and an outhouse and not much more. My dad hitchhiked into 
Knoxville with $5 in his pocket to go to the university. And 
all 10 of those children end up doing real well, but they all 
grew up in what would be considered bitter poverty today, and 
started with nothing.
    So I have spoken many times at the naturalization 
ceremonies in Knoxville to express my respect and admiration 
for people who come to this country with nothing except a 
desire to work and who have made good livings for themselves. 
But the American people are the kindest, most generous people 
in the world, and we have allowed far more immigration than any 
other country over the last 50 years or so, than any other 
country. No other country has come close.
    But when I google the question of percentage of world 
population that lives on $10 a day or less, the first thing 
that pops up is from globalissues.org, says at least 80 percent 
of humanity live on less than $10 a day. Almost half the world, 
over 3 billion people live on less than $2.50 a day. And they 
have similar articles like that.
    We all have tremendous sympathy for all these people who 
are living in such bitter poverty around the world, but when 
you talk about 3 billion people living with almost nothing, you 
can understand that we have no telling how many people who 
would come here tomorrow if they possibly could.
    So it seems to me that we have to have some sort of legal 
orderly system of immigration that has to be enforced, because 
if we didn't, our whole infrastructure, our hospitals, our 
jails, our sewers, our schools, our roads, our whole economy, 
we couldn't handle such a rapid influx as we might have over 
the next 3 or 4 years if we just simply opened our borders, or 
didn't enforce our immigration laws.
    And so when I--and I've heard for--I'm now in my 30th year 
in the Congress. Every year since I've been here, I've heard 
this figure, 11 million immigrants. I believe it has to be at 
least 2 or 3 times that many that are here, living here 
illegally, because I'm not near a border, but every place in 
the country is overrun, it seems to me, with illegal 
immigrants.
    I just wonder, it's not being mean or cruel or harsh to say 
that we have to have some of these immigration laws and they 
have to be enforced. We have to do it, it seems to me, unless 
we want to almost destroy this country economically.
    Mr. Judd, what do you think would happen if we simply--if 
we did away with the Border Patrol and basically just had no 
borders, open borders?
    Mr. Judd. Well, just from my experience of people that 
cross the border illegally now, I think that we would have mass 
influxes of people coming across the border, but that's just 
from my experience.
    I would like to say that I wish that my colleagues from 
management were here to testify as well, because they could 
specifically tell you, you know, why we're allocating resources 
where we're allocating them. And if we were allocating them 
properly, maybe we wouldn't even need the National Guard. But 
we'll never know that because we didn't do it.
    Mr. Duncan. Well, it seems to me that we've got to have 
stronger enforcement of our immigration laws for many, many 
reasons. And I think almost all of us, probably everybody at 
this table, believes in legal immigration and continuing to 
allow many, many people to immigrate here legally. But we just 
have a problem that we are forced to do something about.
    Colonel McCraw, do you want to say anything, or Mr. Arthur?
    Colonel McCraw. I'll gladly pitch in just a couple 
comments. First, we have a very good relationship with U.S. 
Border Patrol. I think that's important that we state that. And 
the leadership has worked very well with us along the border. 
It is a seamless operation. We know what unified command is 
about. We understand in terms of why it is important of 
integrating in terms of air, marine, and land operations, 
special operations groups. All of those things are happening. 
And some things that we can do is use some of our special 
agents to target the smuggling infrastructure in some of those 
areas.
    So I want to give, you know, a clear indication to you and 
members that we do work very well with our Federal partners and 
we're very proud to work with them, the U.S. Border Patrol, the 
brave men and women, all that risk their lives daily to protect 
Texas and the rest of this Nation. So I just want to get that 
on the record.
    In terms of our concern is this: Simply put, is that if the 
border is not secured, then you're opening it up to increased 
drugs, criminal aliens, transnational gangs, some of the things 
you're already seeing, because the border is not secure. And 
there is no question that it has an impact on public safety in 
Texas. Anybody will tell you that. The Texas sheriffs will tell 
you that. The border sheriffs will tell you that. This is a 
nonpartisan issue. This is a national security and public 
safety threat. This is nothing about politics, just simply is.
    And in terms of where the funding comes from, way above my 
pay grade. How it happens, how Border Patrol gets the resources 
they need to secure between the ports of entry, that's 
certainly above my pay grade. I'm sure you can figure it out if 
you wanted to. And believe me, I can assure you, from my 
discussions with members and I've got an appropriations hearing 
next week in Texas, is they want to find out in terms of where 
we are staffing at a Federal level so we can back off from the 
State standpoint. But right now, the Governor has made it very 
clear we're not going to back off an inch. We're not going to 
give one inch to the cartels and the transnational gangs to 
support them.
    Mr. Duncan. Well, I certainly agree with you, but my time 
is up. Thank you very much.
    Mr. DeSantis. The gentleman's time has expired. The chair 
now recognizes the gentleman from California for 5 minutes.
    Mr. Gomez. Thank you, Mr. Chairman, and thank you for the 
witnesses who showed up, for showing up. I really appreciate 
that.
    I believe it is quite evident that the recent deployment of 
National Guard troops to the southern border is hardly the 
result of carefully considered fact-based decisions.
    On April 1st, President Trump manufactured a crisis on 
Twitter and justified the deployment of national troops after 
watching Fox News describe a caravan of Central American 
migrants who entered the U.S. through the so-called catch and 
release. And, as with a lot of his tweets, there is plenty of 
misinformation to unpack.
    First, he appears to be claiming it is getting more 
dangerous due to a caravan of largely Honduran asylum-seekers 
fleeing violence, mostly who are women and children, or even 
babies.
    Mr. Breen, is this also your understanding?
    Mr. Breen. Yes. My understanding is that the caravan is 
essentially asylum-seekers fleeing an extremely violent 
northern triangle of Central America, yes.
    Mr. Gomez. Do you believe this caravan of asylum-seekers 
poses a national security or military threat?
    Mr. Breen. I have absolutely no reason to believe that, no.
    Mr. Gomez. And I know I'm asking to restate some of your 
points, but it's for a purpose.
    President Trump also seemed to imply that the caravans were 
coming, in part, because of DACA, the Deferred Action for 
Childhood Arrivals Program.
    Among other conditions, only individuals who have lived 
here in the U.S. since 2007 would be eligible. Mr. Breen, with 
that in mind, would it be possible for any new arrival from a 
caravan to be eligible for DACA?
    Mr. Breen. By definition, no, it would not.
    Mr. Gomez. President Trump's decision to send National 
Guard troops to the border until a 2,000-mile wall is built is 
also baffling from a policy perspective.
    Mr. Breen, is constructing a 2000-mile concrete border wall 
the most efficient or effective way to improve border security?
    Mr. Breen. I do not believe so, no. The wall would--I mean, 
basically every expert who looked at this, you can construct a 
physical fortification at great cost that will take a great 
period of time. You're going to have to use eminent domain a 
lot to do that, run through a lot of private property. Major 
challenges there.
    And then in the absence of the kind of patrol and 
interdiction resources Colonel McCraw is talking about, all 
you're going to have is an expensive wall people get over, to 
say nothing of the fact that as border apprehensions have been 
decreasing the Coast Guard's interdictions in counter-drug at 
sea have been increasing this entire time.
    So I think there are a lot of other places you can put the 
$20 billion or whatever it's going to cost from, you know, 
added capacity for immigration courts to better resources for 
Border Patrol to resourcing the Coast Guard adequately, and on 
and on we go. But no, I don't think the wall is an effective 
solution.
    Mr. Gomez. Also, Mattis signed a memo that stated that the 
National Guard will not perform law enforcement activities or 
interact with migrants.
    Mr. Breen, is that right? And what would the National 
Guard's role consist of and how effective would they be?
    Mr. Breen. I think that is correct. That is definitely the 
right thing to do. It's worth noting that this is a Title 32 
situation, not a Title 10 situation. So Secretary Mattis is not 
in a position, as strange as it may sound, to directly issue 
guidance to the Guard. That falls to the Governors. But I 
definitely think that is the wisest course of action.
    What ends up happening, of course, is that, in theory, the 
National Guard will do things like man towers and do other 
tasks so that Border Patrol agents are free to go out. But, as 
Mr. Judd has already stated, Border Patrol has already got, in 
some situations, 75 percent of its man strength not patrolling 
already. So it's a little hard to see in a management situation 
like that how you're not just going to have a lot of guys, 
frankly, just standing around.
    Mr. Gomez. I don't have much time, so one of the things I 
want to kind of point out and ask, because it was justified 
that the deployment of National Guard troops based on catch and 
release and DACA. Does sending National Guard troops to the 
border change any policy that you know of, catch and release or 
DACA?
    Mr. Breen. No, not at all.
    Mr. Gomez. So my point is is that it seems that this policy 
was decided at a whim to send National Guard down to the 
border. I'm not saying that it won't be necessary, but I'd like 
to have something that's actually fact-based, something that is 
thought out, that's done with coordination and understands that 
there is a real crisis going on on the border.
    And if your justification is the drug cartels, state it. 
Don't make up another fact that just kind of gives red meat to 
your base, right? That's what this President did is using 
something that's not correlated with what he's calling a 
crisis, because there's no crisis because of these asylum-
seekers, right? And it doesn't change policy at all. All you're 
doing is sending more troops to the border that are going to 
probably not produce the result of keeping away people who will 
be catch and release or DACA recipients. So I just appreciate 
the time.
    In closing, I'd like to enter a letter from civil rights 
groups in California asking Governor Brown to reject the 
xenophobia driving the deployment of the National Guard to our 
border.
    Mr. DeSantis. Without objection.
    Mr. Gomez. Thank you, Mr. Chairman. I yield back.
    Mr. DeSantis. The gentleman yields back. The chair now 
recognizes the gentleman from Georgia for 5 minutes
    Mr. Hice. Thank you very much, Mr. Chairman. Mr. McCraw, I 
understand that your department is responsible in Texas for 
maintaining the statewide sex offender registry. Is that 
correct?
    Colonel McGraw. That is correct.
    Mr. Hice. Okay. This is a little off topic, I understand, 
but it is of great concern to me the threat that's been posed 
by convicted sex offenders who have entered this country 
illegally, and under the previous administration, many of those 
individuals were released from ICE custody without even local 
law enforcement being notified, and without ensuring that they 
were placed on the National Sex Offender Registry.
    Now, I realize a lot has been done within ICE over the last 
couple of years and the law enforcement notification system. 
Progress is being made. I understand that. I deeply appreciate 
that, but I'm, likewise, very much concerned that we have still 
got a long ways to go with this.
    So it is my understanding, for example, that when ICE 
enforcement and removal operations is scheduled to release an 
illegal alien who is required supposedly to register on the sex 
offender list, that ICE sends notification through the 
Department of Justice SORNA, the exchange portal. Is that 
correct?
    Colonel McGraw. Yes, sir.
    Mr. Hice. Okay. So when you receive this information, what 
kind of information is provided? What do you get from ICE? For 
example, are you getting criminal histories, country of origin, 
fingerprints, aliases? What do you get?
    Colonel McGraw. We're getting all the information that we 
need to be able to follow State law and follow up on also the 
Federal requirements, so we can get them registered at that 
point in time. In fact, with ICE ERO we have actually done some 
operations with them to capture sex offenders that were 
criminal aliens here in Texas that have been registered and 
have----
    Mr. Hice. Okay. So, but are you getting like fingerprints, 
and do you get----
    Colonel McGraw. Yes, sir. And I have no reason to know 
otherwise. If there's anything contrary to that I'll get back 
to you, but as I understand it right now we're getting all that 
we need from ICE ERO on the situation like that.
    Mr. Hice. All right. I'm glad to hear that that, but if you 
would get back with me on what you do receive.
    Colonel McGraw. Yes, sir.
    Mr. Hice. I would like that. All right. So at this point in 
the process, is it then your department or ICE that has the 
responsibility to ensure that local law enforcement knows about 
these individuals?
    Colonel McGraw. Well, we certainly do. We go through the 
process. Once they get registered in the Texas registry because 
they live in Texas at that point, we notify local agencies at 
that point in time, and they have the responsibility to 
register.
    Mr. Hice. So ICE hands the baton to you, and at that point, 
it is your responsibility?
    Colonel McGraw. Yes, sir.
    Mr. Hice. Okay. And Texas is doing a good job with 
notifying law enforcement locally and so forth. It is my 
understanding a lot of States are dropping the ball on that. 
Are you aware of that?
    Colonel McGraw. Well, I'm not aware of what they're doing 
in other States, I just know the Governor and the legislature 
won't stand for anything less than getting it done directly.
    Mr. Hice. Okay. It is my understanding that local law 
enforcement is unable and certainly citizens likewise, but 
local law enforcement is unable to access the DOJ SORNA 
exchange portal. Is that----
    Colonel McGraw. I'm not aware of that. I know they can 
access the Texas Sex Offender Registry. I have they have 
access. I can't tell you about SORNA from a Federal standpoint.
    Mr. Hice. Okay. So that's where it becomes your 
responsibility to make sure they get it?
    Colonel McGraw. Yes, sir.
    Mr. Hice. Because they're not able to, as I understand it, 
I just want to make sure. So how can we better fix this whole 
process, improve the notification, the information-sharing 
process, and this type of thing when it comes to sex offenders?
    Colonel McGraw. Well, again, you're looking at different 
States, you know, different things, and some of those things 
are laws, and some things have taken a more proactive approach 
to that concern. In Texas, the legislature and Governor have 
been very proactive and concerned about sex trafficking, 
whether it is international sex trafficking, or we are seeing 
domestic sex trafficking by gangs, and they have been very 
proactive in that area.
    Mr. Hice. Okay. Well, listen, I want to thank you for your 
work with this, and I wanted to--like I said, I know this is a 
little off topic, but it still is very much related to the 
overall topic because we're dealing with this stuff on a 
regular basis, and I appreciate your expertise and what you do. 
I just want to make it known I'm willing to work and look 
forward to working with you, your department any of you who are 
interested in helping find ways to close the gaps and ensure 
the safety of the American public in this regard, and I 
appreciate your work in that regard. I'll yield back.
    Colonel McGraw. Sex trafficking is a problem, and it 
clearly is. We'll get back to you if we have anything.
    Mr. DeSantis. The gentleman yields back. I want to thank 
the witnesses, again, for appearing before us today. The 
hearing record will remain open for 2 weeks for any member to 
submit a written opening statement or questions for the record. 
If there's no further business, without objection, the 
Subcommittee on National Security stands adjourned.
    [Whereupon, at 3:02 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
